                                          11650                           Federal Register / Vol. 73, No. 43 / Tuesday, March 4, 2008 / Notices

                                          where any lot of the food has entered                    health (§§ 108.25(e) and 108.35(f)). To                    marked with an identifying code
                                          distribution in commerce (§§ 108.25(d)                   permit lots to be traced after                             (§§ 113.60(c) (thermally processed
                                          and 108.35(d) and (e)); and to develop                   distribution, acidified foods and                          foods) and 114.80(b) (acidified foods)).
                                          and keep on file plans for recalling                     thermally processed low-acid foods in                        FDA estimates the burden of this
                                          products that may endanger the public                    hermetically sealed containers must be                     collection of information as follows:

                                                                                         TABLE 1.—ESTIMATED ANNUAL REPORTING BURDEN1
                                                                                                                   No. of             Annual Frequency        Total Annual        Hours per
                                                         Form No.                       21 CFR Section                                                                                            Total Hours
                                                                                                                Respondents             per Response           Responses          Response

                                          Form FDA 2541 (Registration)               108.25 and 108.35                        515                    1                    515             .17                 88

                                          Form FDA 2541a (Process Filing)            108.25 and 108.35                       1,489                   8.62               12,835            .333           4,274

                                          Form FDA 2541c (Process Filing)            108.35                                      84                  7.77                 653             .75             490

                                          Total                                                                                                                                                          4,852
                                             1 There   are no capital costs or operating and maintenance costs associated with this collection of information.

                                                                                      TABLE 2.—ESTIMATED ANNUAL RECORDKEEPING BURDEN1
                                                                                                        No. of                Annual Frequency           Total Annual       Hours per
                                                              21 CFR Part                                                                                                                       Total Hours
                                                                                                     Recordkeepers            of Recordkeeping             Records         Recordkeeper

                                          113 and 114                                                                8,950                       1              8,950               250             2,237,500
                                             1 There   are no capital costs or operating and maintenance costs associated with this collection of information.


                                            FDA based its estimate on                              DEPARTMENT OF HEALTH AND                                   ADDRESSES:   In commenting, please refer
                                          registrations and process filings                        HUMAN SERVICES                                             to file code OIG–793-PN. Because of
                                          received over the past 3 years. The                                                                                 staff and resource limitations, we cannot
                                          reporting burden for §§ 108.25(d) and                    Office of Inspector General                                accept comments by facsimile (FAX)
                                          108.35(d) and (e) is minimal because                                                                                transmission.
                                                                                                   Privacy Act of 1974; Revisions to OIG’s
                                          notification of spoilage, process                                                                                      You may submit comments in one of
                                                                                                   Privacy Act System of Records:
                                          deviation or contamination of product                                                                               three ways (no duplicates, please):
                                                                                                   Criminal Investigative Files
                                          in distribution occurs less than once a                                                                                1. Electronically. You may submit
                                          year. Most firms discover these                          AGENCY: Office of Inspector General                        electronic comments on specific
                                          problems before the product is                           (OIG), HHS.                                                recommendations and proposals
                                          distributed and, therefore, are not                                                                                 through the Federal eRulemaking Portal
                                                                                                   ACTION: Notice of proposed revisions to
                                          required to report the occurrence. To                                                                               at http://www.regulations.gov.
                                                                                                   existing Privacy Act systems of records.
                                          avoid double-counting, estimates for                                                                                (Attachments should be in Microsoft
                                          §§ 108.25(g) and 108.35(h) have not                      SUMMARY: The Office of Inspector                           Word, if possible.)
                                          been included because they merely                        General (OIG) proposes to revise and                          2. By regular, express, or overnight
                                          cross-reference recordkeeping                            update the existing system of records,                     mail. You may send written comments
                                          requirements contained in parts 113 and                  entitled ‘‘Criminal Investigative Files’’                  to the following address: Office of
                                          114.                                                     (09–90–0003). This proposed notice is                      Inspector General, Department of Health
                                            Please note that on January 15, 2008,                  in accordance with the Privacy Act                         and Human Services, Attention: OIG–
                                          the FDA Web site transitioned to the                     requirement that agencies publish their                    793–PN, Room 5246, Cohen Building,
                                          Federal Dockets Management System                        amended systems of records in the                          330 Independence Avenue, SW.,
                                          (FDMS). FDMS is a Government-wide,                       Federal Register when there is a                           Washington, DC 20201. Please allow
                                          electronic docket management system.                     revision, change, or addition. This                        sufficient time for mailed comments to
                                          Electronic submissions will be accepted                  system of records, maintained by OIG,                      be received before the close of the
                                          by FDA through FDMS only.                                was last revised and updated on                            comment period.
                                                                                                   December 8, 2006.
                                            Dated: February 26, 2008.                                                                                            3. By hand or courier. If you prefer,
                                          Jeffrey Shuren,
                                                                                                   DATES: Effective Date: These revisions                     you may deliver, by hand or courier,
                                                                                                   will become effective without further                      your written comments before the close
                                          Assistant Commissioner for Policy.                       notice on April 18, 2008 unless                            period to Office of Inspector General,
                                          [FR Doc. E8–4067 Filed 3–3–08; 8:45 am]                  comments received on or before that                        Department of Health and Human
                                          BILLING CODE 4160–01–S                                   date result in a contrary determination.                   Services, Cohen Building, 330
                                                                                                     Comment Date: Comments on these                          Independence Avenue, SW.,
                                                                                                   revisions will be considered if we                         Washington, DC 20201. Because access
                                                                                                   receive them at the addresses provided                     to the interior of the Cohen Building is
sroberts on PROD1PC70 with NOTICES




                                                                                                   below no later than 5 p.m. on April 3,                     not readily available to persons without
                                                                                                   2008. Interested parties may submit                        Federal Government identification,
                                                                                                   written comments on this proposed                          commenters are encouraged to schedule
                                                                                                   revision to the addresses indicated                        their delivery with one of our staff
                                                                                                   below.                                                     members at (202) 358–3141.


                                     VerDate Aug<31>2005    17:57 Mar 03, 2008   Jkt 214001   PO 00000   Frm 00040    Fmt 4703    Sfmt 4703   E:\FR\FM\04MRN1.SGM       04MRN1
                                                                         Federal Register / Vol. 73, No. 43 / Tuesday, March 4, 2008 / Notices                                             11651

                                          FOR FURTHER INFORMATION CONTACT:     Joel                 Dated: February 27, 2008.                           investigations conducted by OIG or
                                          Schaer, Regulations Officer, Office of                  Daniel R. Levinson,                                   other investigative agencies regarding
                                          External Affairs, (202) 619–0089.                       Inspector General.                                    HHS programs and operations,
                                                                                                                                                        documenting the outcome of OIG
                                          SUPPLEMENTARY INFORMATION:      In                      SYSTEM NAME:                                          reviews of allegations and complaints
                                          accordance with the Inspector General                                                                         received concerning HHS programs and
                                                                                                    Criminal Investigative Files of the
                                          Act of 1978, 5 U.S.C. App. 3, the                                                                             operations, aiding in prosecutions
                                                                                                  Inspector General HHS/OS/OIG.
                                          Criminal Investigative Files system of                                                                        brought against the subjects of OIG
                                          records is maintained for the purpose of                SECURITY CLASSIFICATION:
                                                                                                                                                        investigations, maintaining a record of
                                          (1) conducting, documenting, and                          None.                                               the activities that were the subject of
                                          tracking investigations conducted by                                                                          investigations, reporting the results of
                                          OIG or other investigative agencies                     SYSTEM LOCATION:
                                                                                                                                                        OIG investigations to other
                                          regarding HHS programs and                                 Office of Inspector General, HHS,                  departmental components for their use
                                          operations; (2) documenting the                         Room 5409, Wilbur J. Cohen Bldg., 330                 in operating and evaluating their
                                          outcome of OIG reviews of allegations                   Independence Avenue, SW.,                             programs and the imposition of civil or
                                          and complaints received concerning                      Washington, DC 20201.                                 administrative sanctions, and acting as
                                          HHS programs and operations; (3)                           Region 1, Office of Investigations (OI),
                                                                                                                                                        a repository and source for information
                                          aiding in prosecutions brought against                  OIG, JFK Federal Building, Room 2475,
                                                                                                                                                        necessary to fulfill the reporting
                                          the subjects of OIG investigations; (4)                 Boston, Massachusetts 02203.
                                                                                                                                                        requirements of 5 U.S.C. App. 3.
                                          maintaining a record of the activities                     Region 2, OI, OIG, 26 Federal Plaza,
                                          that were the subject of investigations;                Room 13–124, New York, New York                       ROUTINE USES OF RECORDS MAINTAINED IN THE
                                          (5) reporting the results of OIG                        10278.                                                SYSTEM, INCLUDING CATEGORIES OF USERS AND
                                                                                                     Region 3, OI, OIG, Public Ledger                   PURPOSE OF SUCH USES:
                                          investigations to other departmental
                                          components for their use in operating                   Bldg., 150 South Independence Mall                      a. Information from this system of
                                          and evaluating their programs and the                   West, Suite 326, Philadelphia,                        records may be disclosed to any other
                                          imposition of civil or administrative                   Pennsylvania 19106.                                   Federal agency or any foreign, State, or
                                          sanctions; and (6) acting as a repository                  Region 4, OI, OIG, Atlanta Federal                 local government agency responsible for
                                          and source for information necessary to                 Office, 61 Forsyth Street, SW., Suite                 enforcing, investigating, or prosecuting
                                                                                                  5T18, Atlanta, Georgia 30303.                         violations of administrative, civil, or
                                          fulfill the reporting requirements of 5
                                                                                                     Region 5, OI, OIG, 233 North                       criminal law or regulation where that
                                          U.S.C. App. 3.
                                                                                                  Michigan Avenue, Suite 1330, Chicago,                 information is relevant to an
                                             In accordance with the Privacy Act                   Illinois 60601.                                       enforcement proceeding, investigation,
                                          requirement, agencies are to publish                       Region 6, OI, OIG, 1100 Commerce                   or prosecution within the agency’s
                                          their amended systems of records in the                 Street, Room 629, Dallas, Texas 75242.                jurisdiction.
                                          Federal Register when there is a                           Region 7, OI, OIG, 1201 Walnut, Suite                b. Information from this system of
                                          revision, change, or addition. This                     920, Kansas City, Missouri 64106.                     records may be disclosed to (1) The
                                          system of records was last revised and                     Region 9, OI, OIG, 50 United Nations               Department of Justice in connection
                                          updated on December 8, 2006 (71 FR                      Plaza, Room 174, San Francisco,                       with requests for legal advice and in
                                          71180), by updating the ‘‘Systems                       California 94102.                                     connection with actual or potential
                                          Location’’ section of that document.                       Los Angeles Region, OI, OIG, 600                   criminal prosecutions or civil litigation
                                             OIG has reviewed and is now                          West Santa Ana Blvd., Suite 1100, Santa               pertaining to the Office of Inspector
                                          proposing to revise the criminal                        Ana, California 92701.                                General, and (2) a Federal or State grand
                                          investigative file system of records by                                                                       jury, a Federal or State court,
                                                                                                  CATEGORIES OF INDIVIDUALS COVERED BY THE
                                          (1) amending the ‘‘Routine Uses of                      SYSTEM:
                                                                                                                                                        administrative tribunal, opposing
                                          Records Maintained in the System’’                                                                            counsel, or witnesses in the course of
                                                                                                    Individuals relevant to a criminal                  civil or criminal proceedings pertaining
                                          section by adding a new paragraph o. to                 investigation, including but not limited
                                          address the requirement for a routine                                                                         to the Office of Inspector General.
                                                                                                  to the subjects of an investigation,                    c. Information in this system of
                                          use for the disclosure of information in                complainants, and key witnesses where
                                          the investigation of data breaches of                                                                         records may be disclosed to a Federal,
                                                                                                  necessary for future retrieval.                       State, or local agency maintaining civil,
                                          Personally Identifiable Information, in
                                          accordance with Office of Management                    CATEGORIES OF RECORDS IN THE SYSTEM:                  criminal or other relevant enforcement
                                          and Budget Memorandum M–07–16;                             Criminal investigative files and                   records or other pertinent records, such
                                                                                                  extracts from that file consisting of                 as current licenses, if necessary to
                                          and (2) amending the ‘‘Policies and
                                                                                                  computerized case management and                      obtain a record relevant to an agency
                                          Practices for Storing, Retrieving,
                                                                                                  tracking files.                                       decision concerning the hiring or
                                          Reviewing, Retaining, and Disposing of
                                                                                                                                                        retention of an employee, the issuance
                                          Records in the Storage System’’ portion
                                                                                                  AUTHORITY FOR MAINTENANCE OF THE SYSTEM:              of a license, grant or other benefit.
                                          of the system of records to update the                                                                          d. Information in this system of
                                          discussion on access methods for the                      The Inspector General Act of 1978, 5
                                                                                                  U.S.C. App. 3, authorizes Inspectors                  records may be disclosed to a Federal
                                          mainframe and the storage location of                                                                         agency in response to its request in
                                          data so that it is consistent with current              General to conduct, supervise, and
                                                                                                  coordinate investigations relating to the             connection with the hiring or retention
                                          technology. OIG will accept and                                                                               of an employee, the issuance of a
                                          consider comments and feedback in                       programs and operations of their
                                                                                                  respective agencies.                                  security clearance, the reporting of an
                                          response to only the specific revisions                                                                       investigation of an employee, the letting
sroberts on PROD1PC70 with NOTICES




                                          to the current system of records                        PURPOSE(S):                                           of a contract, or the issuance of a license
                                          addressed in this notice.                                 Pursuant to the Inspector General Act               grant, or other benefit by the requesting
                                             This proposed change will not                        of 1978, 5 U.S.C. App. 3, this system is              agency, to the extent that the record is
                                          otherwise increase access to these                      maintained for the purpose of                         relevant and necessary to the requesting
                                          records.                                                conducting, documenting, and tracking                 agency’s decision on the matter.


                                     VerDate Aug<31>2005   17:57 Mar 03, 2008   Jkt 214001   PO 00000   Frm 00041   Fmt 4703   Sfmt 4703   E:\FR\FM\04MRN1.SGM   04MRN1
                                          11652                          Federal Register / Vol. 73, No. 43 / Tuesday, March 4, 2008 / Notices

                                             e. Relevant information may be                       where disclosure would enable the OIG                 safeguarded in accordance with the
                                          disclosed from this system of records to                to identify violations in HHS programs                provisions of the National Institute of
                                          the news media and general public                       or operations or otherwise assist the OIG             Standards and Technology, OMB
                                          where there exists a legitimate public                  in pursuing on-going investigations.                  Memoranda, and HHS Information
                                          interest, e.g., to provide information on                 n. A record may be disclosed to any                 Security policies and guidelines.
                                          events in the criminal process, such as                 official charged with the responsibility
                                          indictments, and where necessary, for                   to conduct qualitative assessment                     RETENTION AND DISPOSAL:
                                          protection from imminent threat to life                 reviews of internal safeguards and
                                          or property.                                            management procedures employed in                       Investigative files are retained for 10
                                             f. Where Federal agencies having the                 investigative operations. This disclosure             years after completion of the
                                          power to subpoena other Federal                         category includes members of the                      investigation and/or action based
                                          agencies’ records, such as the Internal                 President’s Council on Integrity and                  thereon. Paper and computer indices are
                                          Revenue Service, or issue a subpoena to                 Efficiency and officials and                          retained permanently. The records
                                          the department for records in this                      administrative staff within their                     control schedule and disposal standards
                                          system or records, the department will                  investigative chain of command, as well               may be obtained by writing to the
                                          make such records available.                            as authorized officials of the Department             Systems Manager at the address below.
                                             g. When the department contemplates                  of Justice and the Federal Bureau of
                                          that it will contract with a private firm               Investigation.                                        SYSTEM MANAGER(S) AND ADDRESS:
                                          for the purpose of collating, analyzing,                  o. A record may be disclosed to                        Inspector General, Room 5250, Wilbur
                                          aggregating or otherwise refining                       appropriate Federal agencies and                      J. Cohen Building, Department of Health
                                          records in this system, relevant records                Department contractors that have a need               and Human Services, 330 Independence
                                          will be disclosed to such contractor. The               to know the information for the purpose               Avenue, SW., Washington, DC 20201.
                                          contractor shall be required to maintain                of assisting the Department’s efforts to
                                          Privacy Act safeguards with respect to                  respond to a suspected or confirmed                   NOTIFICATION PROCEDURES:
                                          such records.                                           breach of the security or confidentiality
                                             h. Disclosures may be made to                        of information maintained in this                       Exempt. However, consideration will
                                          organizations deemed qualified by the                   system of records, and the information                be given requests addressed to the
                                          Secretary to carry out quality                          disclosed is relevant and necessary for               system manager. For general inquiries, it
                                          assessments.                                            that assistance.                                      would be helpful if the request included
                                             i. Information from this system of                                                                         date of birth and Social Security
                                                                                                  POLICIES AND PRACTICES FOR STORING,
                                          records may be disclosed in the course                                                                        number, as well as the name of the
                                                                                                  RETRIEVING, REVIEWING, RETAINING, AND
                                          of employee discipline of competence                    DISPOSING OF RECORDS IN THE SYSTEM                    individual.
                                          determination proceedings.                              STORAGE:
                                             j. Disclosures may be made to a                                                                            RECORDS ACCESS PROCEDURE:
                                                                                                    The records, which take the form of
                                          congressional office from the record of
                                                                                                  index cards, investigative reports,                     Same as notification procedures.
                                          an individual in response to an inquiry
                                                                                                  microcomputer disks, drives and/or                    Requestors should also reasonably
                                          from the congressional office made at
                                                                                                  CDs, files and printed listings are                   specify the record contents being
                                          the request of the individual.
                                             k. Information from this system of                   maintained under secure conditions in                 sought.
                                          records may be disclosed to the                         limited access areas. Written documents
                                          Department of Justice, to a judicial or                 and computer disks are maintained in                  CONTESTING RECORD PROCEDURES:

                                          administrative tribunal, opposing                       secure rooms, in security type safes or
                                                                                                  in lock bar file cabinets with                          Contact the system manager at the
                                          counsel, and witnesses, in the course of                                                                      address specified above, and reasonably
                                          proceedings involving HHS, an HHS                       manipulation proof combination locks.
                                                                                                  Computer servers containing files are                 identify the record, specify the
                                          employee (where the matter pertains to                                                                        information to be contested, and the
                                          the employee’s official duties), or the                 locked in controlled-access rooms.
                                                                                                  Laptops that may contain files are                    corrective action sought with supporting
                                          United States, or any agency thereof                                                                          justification.
                                          where the litigation is likely to affect                protected with whole-disk encryption.
                                          HHS, or HHS is a party or has an                        RETRIEVABILITY:                                       RECORD SOURCE CATEGORIES:
                                          interest in the litigation and the use of                 Records are retrievable by manual or
                                          the information is relevant and                                                                                 OIG collects information from a wide
                                                                                                  computer search of indices containing                 variety of sources, including
                                          necessary to the litigation.                            the name or Social Security number of
                                             l. Information of this system of                                                                           information from the Department and
                                                                                                  the individual to whom the record
                                          records may be disclosed to a Federal,                                                                        other Federal, State, and local agencies,
                                                                                                  applies. Records may be cross-
                                          State or local agency maintaining                                                                             witnesses, complaints and other
                                                                                                  referenced by case or complaint
                                          pertinent records, if necessary, to obtain                                                                    nongovernmental sources.
                                                                                                  number.
                                          a record relevant to a department
                                          decision concerning the hiring or                       SAFEGUARDS:                                           SYSTEMS EXEMPTED FROM CERTAIN PROVISIONS
                                                                                                     Records are maintained in a restricted             OF THE ACT:
                                          retention of an employee, the issuance
                                          of a security clearance, the letting of a               area and accessed only by Department                     In accordance with subsection (j)(2) of
                                          contract, or the issuance of a license,                 personnel. Access within OIG is strictly              the Privacy Act, 5 U.S.C. 552a(j)(2), the
                                          grant, or other benefit.                                limited to authorized staff members. All              Secretary has exempted this system
                                             m. Information from this system of                   employees are given instructions on the               from the access, amendment, correction,
                                          records may be disclosed to third party                 sensitivity of such files and the
sroberts on PROD1PC70 with NOTICES




                                                                                                                                                        and notification provisions of the Act, 5
                                          contacts, including public and private                  restrictions on disclosure. Access within             U.S.C. 552a(c)(3), (d)(1)–(4), (e)(3), and
                                          organizations, in order to obtain                       HHS is strictly limited to the Secretary,             (e)(4)(G) and (H).
                                          information relevant and necessary to                   Under-Secretary, and other officials and
                                          the investigation of potential violations               employees on a need-to-know basis. All                [FR Doc. E8–4105 Filed 3–3–08; 8:45 am]
                                          in HHS programs and operations, or                      files and printed materials are                       BILLING CODE 4152–01–P




                                     VerDate Aug<31>2005   17:57 Mar 03, 2008   Jkt 214001   PO 00000   Frm 00042   Fmt 4703   Sfmt 4703   E:\FR\FM\04MRN1.SGM   04MRN1
